Certificate of Service
No. 19-360
InThe

Supreme Court of the United States

I hereby certify that three copies hereof will be mailed to the
respondents’ attorney, to the address of record, on or before December 2.0,2019.

Date: December 17,2019
Frances K. Konieczko, Plaintiff/Petitioner
PO Box 540542, Orlando, FL 32854
Date: December 17,2019
Lawrence W. Konieczko, P.E., PlamtifiTPetitioner
PO Box 540542, Orlando, FL 32854
Date: December 17,2019
Laurie F. Konieczko, PlaintiffTPetitioner
PO Box 540542, Orlando, FL 32854

